NO. 19-1251
ft

IN THE
SUPREME COURT OF THE UNITED STATES

Arthur O. Armstrong,

Petitioner

Vs.

School District of Philadelphia, Constance E. Clayton, Ruth Hayre, Ann G. Waiter, Arlene B Holtz.
Arnita B. Sims, Arlene Robin, Norris Elridge, Edward William, Albert M. Gentil, Arnold S. Obion,
Willig William & Davidson, Philadelphia Federation ofTeachers, Catherine Reisman, Harold D.
Diamond.
Respondents,

r

:

.

*

Petition for rehearing

• :\.■J

C"

^ - ---

r

On writ of Certiorari
to the United States Court of Appeals
For the Third Circuit
:
>

Petition for Rehearing

Arthur O. Armstrong, Pro se
8113 Pleasant Hill Road
Elm City, North Carolina 27822
252-236-7912
ir.

19-1251
IN THE
SUPEME COURT OF THE UNITED STATES
Arthur O. Armstrong
Vs.
School District of Philadelphia, et al

PETITION FOR REHEARING
Petitions for rehearing of an order denying certiorari are granted (1) if a petition can
demonstrate "intervening circumstances of a controlling effect, or (2) if petitioner raises other
substantial grounds not previously presented. Petitioner's petition will do both.
Pursuant to Rule 44.2 of the Supreme Court Rules of Appellate Procedure, Petitioner
hereby and respectfully files petition for rehearing on grounds that respondents acted in a
conspiracy. In the furtherance of such a conspiracy, respondents failed to conform to the
requirements of the federal constitution and laws of the United States, when respondents,
without just cause, acted with, including but not limited to: arbitrariness, capriciousness,
malice, deception, fraud, falsity, and conspired to go in disguise on the premise thereof for the
purpose of depriving, either directly or indirectly, petitioner of property without due process of
law in violation of the Fourteenth Amendment to the Constitution of the United States and
Article B-VIII of the Grievance Procedure. In March of 1989 at Taggart Elementary School, an
eight grade White Female student, named Nicole Inversa had a crush on the Petitioner and
demanded attention and was not satisfied with petitioner's response when she told principal
Arlene Robin that petitioner hit her and respondent charged petitioner with corporal
punishment and put it in his personal file. Petitioner told Nicole what had happened to him and

she cried, said she was sorry and told the principal she made it all up. Principal Robin
acknowledged the fact but refused to meet with student and petitioner to clear things up and
so it became part of petitioner's permanent record. Petitioner filed a grievance, pursuant to
Article B-VIII - Grievance Procedure to have the false information removed, but PFT refused or
neglected so to do when PFT denied the petitioner the Grievance Procedure - Article B-VIII in
violation of the collective bargaining agreement and the Fourteenth Amendment to the
Constitution of the United States. That respondent Arlene Robin acted with active connivance
in the making of the corporal punishment false reports and other conduct amounting to official
discrimination clearly sufficient to constitute denial of rights protected by the Equal Protection
Clause to deprive petitioner of property without due process of law in violation of the
Fourteenth Amendment to the Constitution of the United States.
In September of 1989, petitioner was transferred to Wilson Middle School. Petitioner was
very glad for the transfer and that the principal Arlene B. Holtz welcomed him with opened
arms, would come by the classroom and make complementary remarks. Just simply remarkable
and petitioner received a satisfactory rating for the year.
It was well known to the faculty but not to the petitioner that Dr. Holtz had a deep
repugnance for Lisa Grillo, a twenty-five year old White female Jehovah's Witness and that
the government was evil and that she is the government and evil and is unfair also.
On or about May 20,1990, petitioner accidentally locked himself out of his car at the
Broad Axe Tavern in Ambler, PA and needed some one to take him to get his car. When
petitioner arrived at school that morning, he told Lisa Grillo that he locked himself out of his car
last night. She said she would take him to get his car. Being silly and ignorant, like not to rock
the boat, petitioner said NO to her. At the end of the day petitioner had been turned by ail of
the black female co-workers and left stranded with a ride. Lisa saw that the petitioner was left

stranded and said, "I will take you to get your car," she said. I said, "Yes, please." When we
arrived at the location, I said, Thank you, Get in your car and follow me, we are going to have
dinner at the Italian restaurant and off we went and she was tickled pink. Petitioner told the
waitress or bartender to give the lady a coke. And Lisa said, "What do you have?"

I said a

manhattan. She said, "I want what you have." And every body in the place fell out laughing. I
want what you have, I thought it was funny, too and I laugh also. Trying to treat the lady like a
little child.
The next day at school, Drene Shellman, a math teacher and a friend of petitioner and a
trusted friend of Arlene B. Holtz, came running to plaintiff's room screaming and saying, "Mr.
Armstrong, you are in trouble. Dr. Holtz got the news that Lisa Grillo took you to Ambler, PA to
get your car. That Lisa Grillo is telling every body that you are a nice and sweet man and how
nice you were to her. Dr. Holtz is taking this all in, jealous, angry and vindictive thinks you are
romancing her like having a romantic relationship, sex and stuff and is jealous and upset and
angry. Mr. Armstrong, I don't know just what to tell you but Arlene is very revengeful and
knowing her and with her jealousy, she is going to transfer you away from her. She is enraged
at the news and there is nothing you can do I don't know what else to tell you, but Arlene is a
person who is determined to make person pay for her misery. That she feels dejected and
worthless and blaming it

on you is appropriate.. She didn't say it exactly that way, but you are

her ace.
Mr. Lacey is a legendary teacher, an institution taught English at the school for years, she
did not like him and she got rid of him. And since you were in the car with Lisa, you have to go."
"Drena, although I am not obligated to do so, I will try to speak to her," petitioner said.. And
as soon as he was leaving the room, he bumped smack into her in the hall way and before he
could open his mouth to say anything, she vehemently threatened the petitioner with the loss

of his job when she said to him "Next year is going to be difference/' meaning for being in the
car with Lisa, romancing her. That she was going to have petitioner administratively transferred
for the ultimate goal of discharge. Petitioner tried to do every thing to please her; consequently
went to her office to speak to her, she said to him, "Get out!"
Next year, From September 6,1990 - June 1991 respondent Holtz shunned the petitioner
all year long. Didn't say a cordial word, JEALOUSY ANGER and deep REPUGNANCE - took over
respondent — ROMANCE GONE WRONG — Issue: Armstrong purportedly romantic relationship
with Lisa Grillo - May 20,1990.
On or about May, 1991, the day (s) petitioner was absent, all of the sixth graders two
classes, more than 60 pupils, and others petitioned Dr. Holtz for misbehaving, untruthfulness,
not talking to Mr. Armstrong, shunning and stood his up for class display visitation, a no show
for a class Christmas party and heard through the grape vine of the illegal transfer without due
process of law. On the day petitioner returned, Dr. Holtz, as petitioner was signing in, accused
petitioner of putting the pupils up to writing the petitions, when she said, "Look what you got
these kids involved in," and threw the petitions at him. Realizing the words were spreading
about her attitude and stuff and losing control and respect from the kids, Dr. Holtz acted with
totalitariarism when she ordered petitioner to remain in her office and barred him from his
home room when she said "You are not allowed to go to your class room this morning.
Subsequently, in the yard, the kids saw Mr. Armstrong and rallied around him and said, "We
thought you were not coming back and wrote petitions to bring you back to us. Dr. Holtz saw
the petitioner surrounded by students including other sixth graders, and chased petitioner from
the yard when she said, "I don't want you talking to these kids and told petitioner simply,"
Leave the ground and building entirely - go away - go home - away from these kids, back
inside. Petitioner went back inside. Few kids came inside, look at Mr. Armstrong from the hall

and began to cry.
Dr. Holtz asked Ann B. Waiter to come to her rescue and transfer the petitioner for being in
the car together with the twenty-five year old Jehovah's Witness Lisa Grillo. Now, Ann G.
Waiter knew Lisa Grillo was a white twenty-five year old woman and heard the allegations
concerning the crush she had on the petitioner and his response thereto, when she refused to
talk to petitioner because petitioner is black and Lisa is White and she too was jealous and in
the instant action acted with racial discrimination for her own selfish benefit.
Arlene Holtz was jealous because petitioner was in the car with Lisa allegedly romancing her
and acted with racial conspiracy.
Arlene Holtz and Ann B. Waiter acted in a conspiracy. In the furtherance of such a conspiracy,
on June 27,1991, after school was unofficially over for the summer, respondents conspired to
go in disguise on the premise thereof for the purpose, directly or indirectly, to deprive the
petitioner of his job when respondents acted with active connivance in the making of the
petitioner's no class control, misspelled word [sympul] but petitioner did not misspell symbol.
Poor lesson plan and incompetent false reports and other conduct amounting to official
discrimination clearly sufficient to constitute denial of rights protected by the Equal Protection
Clause to deprive petitioner of his property when respondents administratively transferred
petitioner to Beeber Middle School without due process of law in violation of the Fourteenth
Amendment to the Constitution of the United States and Article B-Vlll - Grievance Procedure.
[Holtz spelled meter meeter, simply a mistake].
The Philadelphia Federation of Teachers said over a phone conversation, "Mr. Armstrong,
Do you want your job?"

I said," Yes."

"If you want your job, STOP TALKING TO THAT

WOMAN" said John Mickens, PFT Representative.
On September 12,1991, petitioner was subject to a hostile workplace when petitioner

arrived at Beeber Middle School when respondent Amita B. Sims principal of Beeber Middle
School acted with BIGOTRY, JEALOUSY and RACIAL CONSPIRACY and DISCRIMINATION when
she said, in response to petitioner's "HI." " Don't hi me." She said. "You started off on the
wrong foot already, I heard about you and your White Jehovah's Witness girl friend and you
wont be teaching here long with the school district. You don't like black women, And I am a
black woman.. I taught science and you are no smarter than I..." What's going on. Respondent
Sims threatened petitioner with the loss of his job.
Said, Lisa Grillo contacted or tried to contact the petitioner at the school and principal Sims
became enraged, jealous and repugnant and thought perhaps Mr. Armstrong was still seeing
her and the next day on or about March 19,1992, petitioner's class room was littered with dirt
and paper debris by some person; respondent Norris Eidridge, school co-ordinator for district
Four falsely accused petitioner of dirty class room and placed it in petitioner's file.
Respondent Arnold S. Obion assistant principal, acted with active connivance in the making
of the no lesson plan and lesson objective false reports and other conduct amounting to official
discrimination clearly sufficient to constitute denial of rights protected by the Equal Protection
Clause to deprive the petitioner of his teaching position without due process of law.
Respondent Albert M. Gentil assistant principal acted with active connivance in the making
of the student walking around, paying no attention to Mr. Armstrong, talking amongst
themselves false reports and other conduct amounting to official discrimination clearly
sufficient to constitute denial of rights protected by the Equal Protection Clause to deprive
petitioner of property without due process of law in violation of the Fourteenth Amendment to
the Constitution of the United States.
Respondents Amita B. Sims and Edward William acted in a conspiracy. In the furtherance of
such a conspiracy, on June 20,1992, after the school was unofficially over for the summer,

respondent failed to conform to the requirements of the federal constitution and the laws of
the United States when respondents conspired to go in disguise on the premise thereof for the
purpose of depriving, either directly or indirectly petitioner of property without due process of
law when respondents acted with active connivance in the making of the incompetency, no
control, dirty room and left pupils unattended false reports and other conduct amounting to
official discrimination clearly sufficient to constitute denial of rights protected by the Equal
Protection Clause to deprive petitioner of property without due process of law in violation of
the Fourteenth Amendment to the Constitution of the United States and Article B-VIII Grievance Procedure.
Respondent Constance E. Clayton is president of the Board of Education and Ruth Hayre is
superintendent of the School District of Philadelphia, acted with active connivance in the
making of the state law and afforded Article B-VIII - Grievance Procedure false reports [BLOCK
GRIEVANCE PROCEDURE] and other conduct amounting to official discrimination clearly
sufficient to constitute denial of rights protected by the Equal Protection Clause to deprive the
petitioner of property without due process of taw in violation of the Fourteenth Amendment to
the Constitution of the United States and Article B-VIII - Grievance Procedure.
Each conspirator did some act and omitted some duty and as a result of such commission,
petitioner was deprived of having and exercising any right or privilege of a citizen of the United
States.
That 42 U.S.C.S. 1985 prohibits conspiracy to interfere with civil rights and 1986 proscribes
knowing neglect to prevent (or aid and abet after the fact) such a conspiracy.
That the respondent, each one of them, had the knowledge of the wrongs conspired to be
done and the power to prevent or aid in the preventing of same but refused or neglected so to

do.

Respondents aided and abetted after the fact such a conspiracy.
That on August 25,1992, the School District of Philadelphia discharged petitioner from his
teaching position in violation of Article B-VIII - GRIEVANCE PROCEDURE and the Fourteenth
Amendment to the Constitution of the United States without due process of law and petitioner
filed a lawsuit against respondents PFT and the Board of Education seeking damages in the sum
of $35,000,000.00 for continuing suffering, including but not limited to: mental anguish,
psychic injuries, mental distress, injury to his reputation and humiliation. Then petitioner
demanded he be reinstated to his teaching position with back pay and every thing associated
with the illegal discharge. So respondents PFT, Harold Diamond Law and the Philadelphia Board
of Education signed a written contract guaranteeing reinstatement on the premise petitioner
withdraws his state and federal lawsuits. Petitioner withdrew his federal and state lawsuits. On
November 18,1994, PFT, Philadelphia Board of Education and Harold Diamond breached the
written contract stipulation when respondent Alan Rosen, counsel for Philadelphia Board of
Education had an illegal hearing and acted with active connivance in the making of the afforded
Article B-VIII - Grievance Procedure false reports; Harold Diamond acted with legal Professional
malpractice for not showing up and Rule 5.1. Willig William and Davidson acted with Article
B-VIII Grievance Procedure violation; hired an arbitrator against petitioner's objection and
denied petitioner the opportunity to speak.
Respondent Arlene Holtz acted with active connivance in the making of the petitioner's
afforded Article B-VIII false reports. Ann W. Waiter acted with active connivance in the making
of the afforded Article B-VIII false reports. Arnita B. Sims acted with active connivance in the
making of the afforded Article B-VIII False reports; Arnold S. Obion acted with active connivance
in the making of the petitioner's afforded Article B-VIII - Grievance Procedure. Albert M. Gentil
acted with active connivance in the making of the afforded Article B-VIII - Grievance Procedure

false reports. Refused petitioner his rights to say anything at the fiasco when respondents said,
you are winning. No further action. On January 25,1995, PFT sent petitioner a letter stating
that reinstatement was denied.
That each conspirator had knowledge of the wrongs conspired to be done and had the
power to prevent or aid in the preventing of the commission of same but refused or neglected
so to do.
42 U.S.C.S. 1985 prohibits conspiracy to interfere with civil rights and 1986 proscribes
knowing neglect to prevent (or aid or abet after the fact) such a conspiracy.
That the respondents did some act and omitted some duty and as a result of such
commission, petitioner was deprived of having and exercising any right or privilege as a citizen
of the United States
Respondents aided and abetted after the fact such a conspiracy,
CONCLUSION:
Conspiracy is a secret plan to do something wrong and unlawful, respondents deprived
petitioner of his lively hood by conspiratorial action and petitioner is entitled to relief and
petition for rehearing should be granted.

August 11,2020.

Arthur O. Armstrong, Petitioner
CERTIFICATE OF COUNSEL

I hereby certify that this petition for rehearing is limited to "intervening circumstances of a
substantial or controlling effect or to other substantial grounds not previously presented and
that the petition is presented in good faith and not for delay and is restricted to the grounds
specified in the Supreme Court Rule 44.2
August 11,2020
Arthur O. Armstrong, Petitioner1

